           Audit Report




Social Security Administration
  Employees in the Military




   A-01-13-13083 | September 2013
MEMORANDUM


Date:      September 23, 2013                                                 Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Social Security Administration Employees in the Military (A-01-13-13083)

           The attached final report presents the results of our audit. Our objective was to gather
           information on the Uniformed Services Employment and Reemployment Rights Act of 1994
           violations at the Social Security Administration (SSA) and determine how SSA employees with
           military leave viewed SSA as an employer.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Social Security Administration Employees in the Military
A-01-13-13083

September 2013                                                              Office of Audit Report Summary

Objective                                   Our Conclusions

To gather information on the                The data we obtained showed that, for FYs 2009 through 2012, the
Uniformed Services Employment and           U.S. Department of Labor’s Veterans’ Employment and Training
Reemployment Rights Act of 1994             Services (VETS) and the U.S. Office of Special Counsel (OSC)
(USERRA) violations at the Social           reviewed 935 Federal USERRA claims. Of these 935 claims,
Security Administration (SSA) and           17 (2 percent) involved SSA employees and/or applicants.
determine how SSA employees with            Furthermore, of these 17 claims, VETS and OSC determined that
military leave viewed SSA as an             4 had merit.
employer.
                                            Additionally, of the 50 SSA employees we identified who had
Background                                  military leave, we received feedback from 27. The majority of
                                            responses showed these individuals had no concerns regarding their
Congress enacted USERRA to protect          USERRA rights. Specifically, of the 50 SSA employees in our
the employment and reemployment             review,
rights of Federal and non-Federal
employees when they leave their             •   21 provided favorable feedback about working for SSA as they
employment to perform military or               had no concerns regarding their USERRA rights;
other uniformed service and return to
civilian employment after service. In       •   6 provided less than favorable feedback about working for SSA,
general, the protected person is entitled       of which 1 filed a USERRA claim in 2007 that was found to
to reemployment with the same status,           have no merit; and
seniority, and rate of pay as if
continuously employed during the            •   23 (17 current and 6 former SSA employees) did not provide
period of service. Additionally,                any feedback of their experience working for SSA and having
Congress believes the Government                military leave.
should be a model employer in
carrying out the USERRA provisions.

To conduct our review, we obtained
information on the number of Federal
USERRA claims related to SSA for
Fiscal Years (FY) 2009 through 2012.
Additionally, we obtained data from
SSA’s Mainframe Time and
Attendance System as of March 2011
and identified 50 individuals who had
military leave.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Federal USERRA Claims ..........................................................................................................2
     SSA Employees with No Concerns ...........................................................................................3
     SSA Employees with Concerns .................................................................................................3
     No Feedback Received ..............................................................................................................5
Conclusion .......................................................................................................................................5
Agency Comments ...........................................................................................................................5
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Veterans’ Employment and Training Services Federal Claims .......................... B-1
Appendix C – Agency Comments .............................................................................................. C-1
Appendix D – Major Contributors.............................................................................................. D-1




SSA Employees in the Military (A-01-13-13083)
ABBREVIATIONS
DoL                  Department of Labor

ESGR                 Employer Support for the Guard and Reserve

FY                   Fiscal Year

MSPB                 Merit Systems Protection Board

MTAS                 Mainframe Time and Attendance System

OIG                  Office of the Inspector General

OSC                  Office of Special Counsel

Pub. L. No.          Public Law Number

SSA                  Social Security Administration

U.S.C.               United States Code

USERRA               Uniformed Services Employment and Reemployment Rights Act of 1994

VETS                 Veterans’ Employment and Training Services




SSA Employees in the Military (A-01-13-13083)
OBJECTIVE
Our objective was to gather information on the Uniformed Services Employment and
Reemployment Rights Act of 1994 (USERRA) violations at the Social Security Administration
(SSA) and determine how SSA employees with military leave viewed SSA as an employer.

BACKGROUND
Congress enacted USERRA to protect the employment and reemployment rights of Federal and
non-Federal employees when they leave their employment to perform military or other
uniformed service and return to civilian employment after service. 1 In general, the protected
person is entitled to reemployment with the same status, seniority, and rate of pay as if
continuously employed during the period of service. Additionally, Congress believes the
Government should be a model employer in carrying out the USERRA provisions. 2

Under USERRA, an employee or applicant for employment who believes his/her USERRA
rights have been violated may file a claim with the Department of Labor’s (DoL) Veterans’
Employment and Training Services (VETS), which investigates and attempts to resolve the
claim. If DoL’s VETS cannot resolve the claim and the service member is a Federal employee
or applicant for a Federal job, DoL informs the claimant of the right to have his/her claim
referred to the Office of Special Counsel (OSC). 3 OSC will further review the claim and
possibly represent the claimant before the Merit Systems Protection Board (MSPB). The
applicant may also file a complaint directly with MSPB. 4

In February 2012, the Washington Post reported that, in Fiscal Year (FY) 2011, more than
18 percent of the 1,548 complaints of USERRA violations involved Federal agencies. The
article included an example of a former SSA employee. 5

To conduct our review, we obtained information from VETS and OSC concerning the number of
Federal USERRA claims for FYs 2009 through 2012 relating to SSA. Additionally, we obtained
data from SSA’s Mainframe Time and Attendance System as of March 2011 and identified
50 individuals who had military leave. As of February 2013, with assistance from SSA, we
determined 44 individuals were current SSA employees, and 6 were former SSA employees. We
attempted to contact all 50 individuals via email, mail, and telephone to obtain their feedback on
how they felt SSA treated them as a result of their military leave and determine whether they felt



1
    Pub. L. No. 103-353, 108 Stat. 3149, 38 U.S.C. §§ 4301-4335 (1994).
2
    Pub. L. No. 103-353, 108 Stat. 3149, 3150, 38 U.S.C. § 4301(b) (1994).
3
 OSC is an independent investigative and prosecutorial agency with the primary mission of protecting the
employment rights of Federal employees and applicants for Federal employment.
4
    Pub. L. No. 103-353, 108 Stat. 3149, 3166, 38 U.S.C. § 4324(a)(1) (1994).
5
    Steve Vogel, Returning Military Members Allege Job Discrimination, Washington Post, February 19, 2012.



SSA Employees in the Military (A-01-13-13083)                                                                1
their USERRA rights had been violated. For details about our scope and methodology, see
Appendix A.

RESULTS OF REVIEW
The data we obtained showed that, for FYs 2009 through 2012, VETS and OSC reviewed
935 Federal USERRA claims. 6 Of these 935 claims, 17 (2 percent) involved SSA employees
and/or applicants. Furthermore, of these 17 claims, VETS and OSC determined that 4 had
merit. 7

Additionally, of the 50 individuals we attempted to contact who had military leave, we received
feedback from 27. The majority of responses showed these individuals had no concerns
regarding their USERRA rights. Specifically, of the 50 SSA employees in our review,

•     21 provided favorable feedback about working for SSA as they had no concerns regarding
      their USERRA rights;

•     6 provided less than favorable feedback about working for SSA, of which 1 filed a USERRA
      claim in 2007 that was found to have no merit; and

•     23 (17 current and 6 former SSA employees) did not provide any feedback of their
      experience working for SSA and having military leave.

Federal USERRA Claims
For FYs 2009 through 2012, VETS reviewed 783 Federal USERRA claims. Of these
783 claims, 15 (2 percent) involved SSA employees and/or applicants. 8 Furthermore, VETS
determined only three of the SSA claims had merit. The issues for each of those three claims
involved (1) discrimination against a protected service member because of military obligations;
(2) failure to provide fringe benefits to which the service member may have been entitled while
on military duty; and (3) failure to reinstate an eligible employee to their job. For a complete list
of VETS Federal USERRA claims for FYs 2009 through 2012, see Appendix B.




6
  VETS reviewed 783 claims for FYs 2009 through 2012 while OSC reviewed 152 claims in FY 2012. OSC did not
review any unique Federal USERRA claims for FYs 2009 through 2010 because a demonstration project had ended
in FY 2008, and a new demonstration project did not begin until August 2011.
7
    SSA has about 60,000 employees.
8
 VETS could not release any claimants’ names; therefore, we were unable to determine whether any of the
15 claimants were included in our sample. Also, without the claimants’ names, we could not confirm with SSA
whether SSA took appropriate actions for the three claims VETS determined had merit.



SSA Employees in the Military (A-01-13-13083)                                                                 2
In FY 2012, OSC reviewed 152 Federal USERRA claims, 9 of which 2 (1 percent) involved SSA
employees and/or applicants. 10 Furthermore, OSC determined only one claim—involving paid
leave for an employee that resulted in SSA restoring the employee’s leave—had merit.

SSA Employees with No Concerns
The 21 SSA employees who had no concerns regarding their USERRA rights provided favorable
feedback on working for SSA while serving in the military. Below are examples of the feedback
we received.

•      One employee stated when she returned from her military leave, her office welcomed her
       back with open arms and promoted her several months later. Additionally, she stated her
       coworkers used her status as a National Guard Member to improve their knowledge of
       military leave. This employee stated she was thankful she worked in a good environment.

•      One employee stated SSA made his transition to and from active duty easy and seamless.
       While on active duty, he kept in contact with his supervisor at SSA. Additionally, he gave
       high praise to SSA’s Office of Human Resources for explaining his rights before he left for
       active duty as well as informing him of his duties and obligations once he was released from
       active duty.

•      One employee stated while on active duty, her office kept her informed about what was
       going on at her office and of any job opportunities for which she was eligible. After active
       duty, SSA transitioned her back into her job quickly, and she never felt like she was left out
       of the loop. She was so appreciative of how seamless her transition returning from active
       duty to working for SSA that she nominated her office for an Employer Support for the
       Guard and Reserve (ESGR) award, which her office received. 11

SSA Employees with Concerns
For the six SSA employees who had concerns regarding their military leave while working at
SSA, three believed they were not promoted because of their military leave, and three believed
SSA did not handle their military leave pay correctly. 12 Four of the six SSA employees allowed




9
    OSC, FY 2012 Performance and Accountability Report, page 36.
10
     We were able to determine that neither of the two claims were from individuals in our sample.
11
  The ESGR awards program is designed to recognize employers for employment policies and practices that are
supportive of their employees’ participation in the Guard and Reserve.
12
  Full-time employees receive 120 hours (15 days) of regular military leave at the beginning of each leave year. In
addition to regular military leave, Reservists and National Guardsmen may receive special military leave, which
could be up to an additional 22 workdays. See SSA, Personnel Policy Manual Chapter S630_8, subsection 3.1.1.1
and 3.1.2.1.



SSA Employees in the Military (A-01-13-13083)                                                                         3
us to share their concerns with SSA’s Office of Human Resources. SSA responded to the
employees’ concerns. Below are examples of the feedback we received.

•   One employee filed a USERRA complaint because he believed he was not given a fair
    chance for a promotion. He was notified by SSA after he filed the complaint that he was
    responsible for requesting notification of vacancies while he was on military leave.
    Therefore, when he went on his most recent military assignment, he informed his office that
    he wanted to be notified of any vacancies. When he returned from active duty, he found five
    new supervisors had been selected from vacancies of which he had not been notified. This
    employee did not want us to share his concerns with SSA.

•   One employee applied for two promotional vacancies while on active duty. The employee
    believed the vacancies were filled a few years after he returned to SSA. The employee
    believed he was more qualified for the promotions than the two individuals who received
    them. Therefore, he believed his military leave prohibited him from receiving a promotion.
    We referred this employee’s concerns to SSA. According to SSA, it did not find any
    evidence to support the allegation.

•   One employee was injured while on active duty in 2010. He then called his SSA office to
    request that it process his 15 days of military leave for FY 2010. The employee was
    informed in December 2010 that SSA could not process his military leave. He did not
    understand why they could not process his leave because he had military leave processed
    during a previous active duty tour; therefore, he informed his office he would straighten it out
    when he returned to work. However, he has not returned to work at SSA as he is still on
    leave without pay because of uniformed services. He stated that he had not spoken to his
    SSA office since December 2010. He expressed concern to us as to why SSA could not
    process his 45 days (15 days per FY) of military leave for FYs 2010 through 2012. We
    referred this employee’s concern to SSA. SSA informed us the employee was granted
    military leave in FY 2010, and he had not used any military leave for FYs 2011, 2012, or
    2013. According to the employee’s manager, the employee did not formally submit any
    requests to use military leave in 2011, 2012, or 2013; therefore, SSA had not granted any
    military leave for those years.

    On June 5, 2013, the employee contacted his SSA office by email and informed his manager
    that he would like to return to work in August 2013. Additionally, the employee requested
    his 45 days of military leave for FYs 2011 through 2013. On June 12, 2013, the employee
    contacted us as he had not received any response from his SSA office concerning his email.
    We then contacted SSA and informed them of the situation. SSA was able to provide us with
    a contact at the SSA Regional Office who would be able to help the employee resolve his
    matter. We then forwarded the contact information to the employee.

    SSA informed us that, as of August 10, 2013, it certified the proper amendments to the
    employee’s time and attendance record and properly paid this employee for his military
    leave.




SSA Employees in the Military (A-01-13-13083)                                                     4
No Feedback Received
For the 23 individuals for whom we did not receive any feedback,

•      11 did not respond despite numerous attempts to contact them by email, mail, and
       telephone; 13

•      7 SSA employees were on military leave; 14

•      4 former employees could not be contacted as their last known addresses in SSA’s records
       were out of date; and

•      1 SSA employee did not wish to participate in our review.

CONCLUSION
SSA has about 60,000 employees, and for FYs 2009 through 2012, there were 17 USERRA
claims that involved SSA employees and/or applicants. Furthermore, VETS and OSC
determined that, of these 17 claims, 4 had merit.

Additionally, we received feedback from 27 of the 50 individuals in our review, and the majority
of responses received indicated SSA as a favorable employer to work for while serving in the
military as these individuals had no concerns regarding violations of their USERRA rights.

AGENCY COMMENTS
SSA reviewed the draft report and provided an update on one of the cases in our review; see
Appendix C.




13
     For these 11 individuals, 9 were current SSA employees and 2 were former SSA employees.
14
     We attempted to contact these employees by mail using the last known address on file provided by SSA.



SSA Employees in the Military (A-01-13-13083)                                                                5
                                       APPENDICES




SSA Employees in the Military (A-01-13-13083)
Appendix A – SCOPE AND METHODOLOGY
To conduct our review, we:

•     Reviewed applicable sections of the Social Security Act and the Social Security
      Administration’s (SSA) regulations, policies, and procedures.

•     Reviewed the Uniformed Services Employment and Reemployment Rights Act of 1994
      (USERRA). 1

•     Reviewed reports related to USERRA, which included Government Accountability Office
      reports and USERRA annual reports to Congress.

•     Contacted the Department of Labor’s Veterans’ Employment and Training Services and the
      U.S. Office of Special Counsel to request lists of USERRA violations related to SSA for
      Fiscal Years 2009 through 2012.

•     Obtained data from SSA’s Mainframe Time and Attendance System (MTAS) as of
      March 2011 and identified 50 individuals who had military leave.

•     Attempted to contact the 50 individuals to obtain their feedback on how they felt they were
      treated working for SSA while having military leave.

We conducted our review between February and June 2013 in Boston, Massachusetts. The entity
audited was the Office of Human Resources under the Office of the Deputy Commissioner for
Human Resources. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives. We tested the
MTAS data and concluded they were reliable to meet our audit objective.




1
    Pub. L. No. 103-353, 108 Stat. 3149, 38 U.S.C. §§ 4301-4335 (1994).



SSA Employees in the Military (A-01-13-13083)                                                   A-1
Appendix B – VETERANS’ EMPLOYMENT AND TRAINING
             SERVICES FEDERAL CLAIMS
Under the Uniformed Services Employment and Reemployment Rights Act of 1994 (USERRA),
an employee or applicant for employment who believes his/her USERRA rights have been
violated may file a claim with the Department of Labor’s (DoL) Veterans’ Employment and
Training Services (VETS), which investigates and attempts to resolve the claim. If DoL’s VETS
cannot resolve the claim and the uniformed service member is a Federal employee or applicant to
a Federal agency, DoL informs the claimant of the right to have his/her claim referred to the
Office of Special Counsel (OSC) for further review 1 and possible OSC representation before the
Merit Systems Protection Board (MSPB) or they may file a complaint directly with MSPB. 2

Table B–1 shows the number of Federal USERRA claims VETS’ received during Fiscal Years
(FY) 2009 through 2012. Of the 783 Federal USERRA claims received, 15 (2 percent) related to
the Social Security Administration. 3

                               Table B–1: VETS’ Federal USERRA Claims
                   Federal Agency                        FY 2009      FY 2010    FY 2011      FY 2012      Total
ACTION                                                       -             -        1             -         1
Agricultural Research Service                                -             -        1             -         1
Air Force Department                                        10            10        11           5          36
Alcohol, Tobacco and Firearms                                1             -         -           1          2
Animal and Plant Health Inspection Service                   -             1         1            -         2
Army Department                                             12            34        37           15         98
Benefits Review Board                                        -             -        1             -         1
Census Bureau                                                2             2         -            -         4
Centers for Disease Control                                  1             -         1            -         2
Central Intelligence Agency                                  -             1         -            -         1
Comptroller of the Currency                                  -            1          -            -         1
Consumer Product Safety Commission                           -            1          -            -         1
Contract Appeals, Board of                                   -             1         -            -         1
Defense Contract Audit Agency                                -             -        1            1          2
Defense Intelligence Agency                                  1             1         -           2          4



1
 OSC is an independent investigative and prosecutorial agency with the primary mission of protecting the
employment rights of Federal employees and applicants for Federal employment.
2
    Pub. L. No. 103-353, 108 Stat. 3149, 38 U.S.C. § 4324(a)(1) (1994).
3
 OSC did not review any unique Federal USERRA claims for FYs 2009 through 2010 because a demonstration
project had ended in FY 2008, and a new demonstration project did not begin until August 2011. Therefore, the
only information we could obtain from OSC was the number of USERRA claims for FY 2012 relating to SSA,
which was two claims.



SSA Employees in the Military (A-01-13-13083)                                                                   B-1
               Federal Agency                    FY 2009   FY 2010   FY 2011   FY 2012   Total
Defense Logistics Agency                            2         6         -         4       12
District Court, U.S.                                -        1          -         -       1
Drug Enforcement Administration                     -         -        5          1       6
Elementary and Secondary Education                  -         -        1          -       1
Employment and Training Administration              -        1          -         -       1
Energy                                              1         2         1         1       5
Engineers, Corps of                                 -        1         2          -       3
Engraving and Printing                              1         -         -         -       1
Environmental Protection Agency                     1         -        1          -       2
Equal Employment Opportunity Commission             1         1         -         -       2
Farm Credit Administration                          -         -        1          -       1
Federal Acquisition Regulation                      1        3         2          -       6
Federal Aviation Administration                     4        2         5          4       15
Federal Bureau of Investigations                    1         -        1          -       2
Federal Contract Compliance Programs                -        1          -         1       2
Federal Election Commission                         -        1          -         -       1
Federal Emergency Management Agency                 -         -        3          -       3
Federal Energy Regulatory Commission                -        1          -         -       1
Federal Prison Industries, Inc.                     3        2         1          -       6
Federal Property Management Regulations System      -         -         -         1       1
Federal Reserve System                              -         -        1          -       1
Fish and Wildlife Service, U.S.                     -         -        1          -       1
Food and Drug Administration                        -         -        1          -       1
Food Safety and Inspection Service                  -        1          -         -       1
Forest Service                                      2        1         3          4       10
Health Care Financing Administration                -        1          -         -       1
Human Development Services                          -        1          -         -       1
Indian Affairs                                      -        1         1          -       2
Inspector General (Health Care)                     -         -         -         1       1
Internal Revenue Service                            2         2         2         3       9
International Development, Agency for               -         -        2          -       2
Land Management                                     -        1         1          -       2
Marine Corps Department                             -        2          -         -       2
Mine Safety and Health Administration               -        1          -         -       1
Miscellaneous Agencies                              1         -         -         1       2
National Institute of Health                        1         1         1         -       3
National Park Service                               -         -         -         3       3
National Transportation Safety Board                1         -         -         -       1
Navy Department                                     9        10        16         6       41




SSA Employees in the Military (A-01-13-13083)                                              B-2
                   Federal Agency                       FY 2009      FY 2010       FY 2011      FY 2012      Total
Occupational Safety and Health Administration                -            -           1             -          1
Office of the Inspector General 4                            -           1             -            -          1
Postal Service, U.S.                                        43           40           35           4          122
Prisons                                                     7             6            3           1          17
Public Health Service                                        -           1            1             -          2
Reclamation                                                 1             -           1             -          2
Secretary                                                    -            -           2            1           3
Secretary of Agriculture                                     -           2            2            2           6
Secretary of Commerce                                       1             -            -            -          1
Secretary of Defense                                        3            4             7           4          18
Secretary of Homeland Security                               -           4            9            3          16
Secretary of Labor                                          1            1            4             -          6
Secretary of State                                           -           4            3            3          10
Secretary of the Interior                                    -            -           1             -          1
Secretary of the Treasury                                   1             -            -            -          1
Secretary of Transportation                                  -           3             -            -          3
Small Business Administration                                -            -            -           1           1
Social Security Administration                              3            6             3           3          15
Tennessee Valley Authority                                   1            3            -           1           5
To Be Determined                                             7            6            7            -         20
Transportation Security Administration                      7            8            12           7          34
U.S. Attorney’s Office                                       2            1            -            -          3
U.S. Citizenship and Immigration Service                    5             -            -           2           7
U.S. Coast Guard                                             -           1            4             -          5
U.S. Customs and Border Protection                           3            4            2           4           13
U.S. Immigration and Customs Enforcement                     1            2            3            2          8
U.S. Secret Service                                         1            3            1             -          5
Veterans Affairs Department                                 40           31           46           21         138
Veterans Employment and Training                             -           2             -           1           3
Vocational and Adult Education                               -           1             -            -          1
Wage and Hour Division                                      1             -            -            -          1
Grand Total                                                186          230           253          114        783




4
    The data VETS provided did not indicate for which Office of the Inspector General the claimant worked.



SSA Employees in the Military (A-01-13-13083)                                                                  B-3
           Appendix C – AGENCY COMMENTS




                                            SOCIAL SECURITY

MEMORANDUM


Date:      September 5, 2013                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Social Security Administration Employees in the
           Military” (A-01-13-13083)--INFORMATION

           Thank you for the opportunity to review the draft report. We offer the following comment.

           On page 4, bullet 3, you describe actions that had taken place regarding an employee obtaining
           credit for military leave. We suggest you update the report to reflect that, as of August 10, 2013,
           we certified the proper amendments to the employee’s time and attendance record and ensured
           we properly paid the employee.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.




           SSA Employees in the Military (A-01-13-13083)                                                   C-1
Appendix D – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

David Mazzola, Audit Manager

Frank Salamone, Senior Auditor

Kevin Joyce, IT Specialist




SSA Employees in the Military (A-01-13-13083)      D-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
